                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM
                                                                                              ij
                                                                                                             .
Case Number: I05100058
                                                                             11           Page 1 of 1
                                                                                                        11
     As part of a proactive review of partnership grants, OIG selected several grants to review. To
     that end, partnership grant' between two research entities2 was selected for review. While
     reviewing the grant file, OIG discovered there were problems with the partnership that would
     drastically impact the progress of the grant. An investigation was initiated to determine if the
     problems with the partnership affected the outcome of the grant.

     During the third year of the award, the secondary entity informed the lead organization that it
     could no longer commit the resources it had previously agreed to because of staff reassignments
     and a shift in priorities.

     OIG interviewed the Program Director ( P D ) ~and asked about the goals of the grant andkvhether
     or not they were met in a timely manner. The PD indicated that the goals of the grant were
     indeed met and the accomplishments of the grant will be of great importance in weather research.
     OIG is satisfied that the research was accomplished and the issues with the partnership did not
     adversely affect the outcome of the grant.
